           Smithsonian Institution
           Office of the Inspector General


           In Brief                                Human Resources Management System
                                                   Report Number A-07-06, September 19, 2007



Why We Did This Evaluation            What We Found

Under the Federal Information         HRMS contains sensitive personnel data. Managers throughout the Institution
Security Management Act of 2002       use HRMS to manage core activities such as recruitment, electronic transmittal of
(FISMA), the Office of the            personnel actions, benefits administration, training, and recording and reporting
Inspector General (OIG) conducts      of workplace incidents and injuries.
an annual independent
assessment of the Institution’s       Overall, we concluded that management has done a good job identifying,
information security system. As       documenting, and implementing management, operational, and technical
part of that assessment, FISMA        controls over HRMS. We did, however, note instances during our testing where
requires a review of a subset of      policies and procedures were not being followed. Specifically, we found that:
information systems. This report
covers one such system, the              Management did not enforce access authorization procedures that require
Human Resources Management                approved user access request forms, increasing the risk of individuals being
System (HRMS), and evaluates              granted excessive or unauthorized access to the system and related data.
HRMS management, operational,
and technical security controls.         Management did not ensure adequate segregation of administrative and
                                          security functions, particularly duties concerning the review of database logs
                                          and access restrictions associated with system changes.

What We Recommended                      Management did not review database logs or monthly compliance reports on
                                          a consistent basis, increasing the risk that inappropriate or unauthorized
We made five recommendations              activities may have occurred without detection.
to strengthen controls over
HRMS by enforcing Institution            Management did not document the final HRMS baselines and note where
policies, procedures, and practices       deviations may have occurred for valid business purposes. As a result,
over user access request forms,           management cannot ensure that technical controls have been adequately
segregation of employee duties,           identified and implemented.
database logging and monitoring,
system baselines, and                    The Institution did not establish proper authorization for the HRMS
interconnection agreements.               connection with the National Finance Center, which was outside of the
                                          accreditation boundary.
Management concurred with the
report’s findings and                 Without adequate controls in place to enforce Institution policies, procedures,
recommendations and has               and practices over HRMS, the confidentiality, availability, and integrity of the
planned or taken action that will     system and its related data may be at greater risk than management is willing to
resolve all recommendations.          accept.




                                      For additional information or a copy of the full report, contact the Office of
                                      the Inspector General at (202) 633-7050 or visit http://www.si.edu/oig.
                            REPORT ON THE AUDIT OF THE
                                  FISCAL YEAR 2007
                        HUMAN RESOURCES MANAGEMENT SYSTEM
                              SMITHSONIAN INSTITUTION
                          OFFICE OF THE INSPECTOR GENERAL




Cotton & Company LLP
Auditors · Advisors
635 Slaters Lane, 4th Floor
Alexandria, Virginia 22314
703.836.6701
www.cottoncpa.com




                                        1
                                           CONTENTS

Section                                                         Page
Purpose                                                          3

Background                                                       3

Objectives, Scope, and Methodology                               4

Results
   User Access Request Procedures Are Not Implemented             5
   Segregation of Duty Controls Need Improvement                  6
   Database Logging and Monitoring Controls Are Inadequate        8
   Baseline Configurations Are Not Documented                    9
   Information System Connections Are Not Formally Authorized    10

Summary of Management Response                                   12

Office of the Inspector General Comments                         12

Appendix – Management Response                                   13




                                              2
                              REPORT ON THE AUDIT OF THE
                                    FISCAL YEAR 2007
                          HUMAN RESOURCES MANAGEMENT SYSTEM
                                SMITHSONIAN INSTITUTION
                            OFFICE OF THE INSPECTOR GENERAL


Cotton & Company LLP conducted an audit of the Smithsonian Institution’s security
management programs and practices to determine the effectiveness of management, operational,
and technical security controls over the Institution’s Human Resources Management System
(HRMS).

PURPOSE

The E-Government Act of 2002 (Pub. L. No. 107-347), which includes Title III, the Federal
Information Security Management Act of 2002 (FISMA), was enacted to strengthen the security
of federal government information systems. Although the E-Government Act of 2002 does not
apply to the Institution, the Institution supports the information security practices required by the
Act because they are consistent with and advance the Institution’s mission and strategic goals.

FISMA outlines federal information security compliance criteria, including the requirement for an
annual independent assessment by the Institution’s Inspector General. This report covers the
evaluation of the HRMS management, operational and technical security controls and supports
the Smithsonian Institution Office of the Inspector General (OIG) annual FISMA evaluation of
the information security controls implemented by the Institution.

BACKGROUND

FISMA, Office of Management and Budget (OMB) regulations and National Institute of
Standards and Technology (NIST) guidance outline minimum security requirements for federal
information security programs. These include:

     • Recommended Security Controls. NIST’s Recommended Security Controls for Federal
       Information Systems provides guidelines for selecting and specifying security controls for
       information systems supporting the executive agencies of the federal government. The
       guidelines apply to all components of an information system that process, store, or
       transmit federal information. The guidelines have been developed to help achieve more
       secure information systems within the federal government. The process of selecting and
       specifying security controls for an information system includes the organization’s overall
       approach to managing risk, the security categorization of the system in accordance with
       Federal Information Processing Standard (FIPS) 199 and the selection of minimum
       (baseline) security controls, the activities associated with tailoring the baseline security
       controls through the application of scoping guidance and the assignment of organization-
       defined parameters, and the potential for supplementing the minimum security controls
       with additional controls, as necessary, to achieve adequate security.

     • Certification and Accreditation. NIST’s Guide for the Security Certification and
       Accreditation of Federal Information Systems states that systems should be certified and
       accredited. A certification is “a comprehensive assessment of the management,
       operational and technical security controls in an information system, made in support of

                                                  3
        security accreditation, to determine the extent to which the controls are implemented
        correctly, operating as intended, and producing the desired outcome with respect to
        meeting the security requirements for the system.” NIST guidance also discusses system
        accreditation, which is “the official management decision given by a senior agency
        official to authorize operation of an information system and to explicitly accept the risk to
        agency operations (including mission, functions, image, or reputation), agency assets, or
        individuals, based on the implementation of an agreed-upon set of security controls.”
        Organizations should use the results of the certification to reassess their risks and update
        system security plans to provide the basis for making security accreditation decisions.

    • System Security Plan. NIST’s Guide for Developing Security Plans for Federal
      Information Systems requires that all major application and general support systems be
      covered by a security plan. The plan provides an overview of the security requirements of
      a system and describes controls in place or planned for meeting those requirements.
      Additionally, the plan defines responsibilities and the expected behavior of all individuals
      accessing the system. The NIST guide also instructs that the security plan should describe
      the management, operational, and technical controls the organization has implemented to
      protect the system. Among other things, these controls include user identification and
      authentication procedures, contingency/disaster recovery planning, application software
      maintenance, data validation, and security awareness training.

OBJECTIVES, SCOPE, AND METHODOLOGY

On behalf of the OIG, Cotton & Company performed an independent audit of HRMS, the
Institution’s human resources system. We conducted this audit in accordance with Government
Auditing Standards, 2007 Revision, as amended, promulgated by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence that provides a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. This report is intended to meet the
objectives described below and should not be used for other purposes.

As part of the Institution’s Enterprise Resource Planning (ERP) system, HRMS contains sensitive
information that must be protected from unauthorized disclosure. The mission of HRMS is to
help managers at all levels manage human resource information successfully. Managers
throughout the Institution use the system to manage core activities including:

    •   Recruitment
    •   Electronic transmittal of personnel actions
    •   Benefits administration
    •   Training
    •   Employee and labor relations
    •   Recording and reporting of workplace incidents and injuries
    •   Management of relevant Occupational Health and Safety data
    •   Competencies, career planning, and succession planning

The objectives of this independent audit were to evaluate and report on management’s
identification, documentation, and implementation of management, operational and technical
security controls required by NIST Special Publication (SP) 800-53.

                                                 4
To accomplish these objectives, we performed a detailed audit of required controls using
suggested audit procedures outlined in NIST’s Draft SP 800-53A. We performed a high-level
review of available certification and accreditation (C&A) documentation, including the HRMS:

    •   System Security Plan
    •   Plan of Actions and Milestones
    •   Risk Assessment
    •   Certification and Accreditation Letters, and
    •   Documented NIST SP 800-53 controls

Management has classified HRMS as a moderate-impact system in accordance with FIPS 199
Standards for Security Categorization of Federal Information and Information Systems. The
system and its data are sensitive. As a result, we evaluated HRMS general controls from
November 2006 through January 2007 using test procedures for a moderate impact system as
defined in NIST’s Draft SP 800-53A Guide for Assessing the Security Controls in Federal
Information Systems. Test procedures in SP 800-53A were designed by NIST to test specific
security controls outlined in NIST SP 800-53 Recommended Security Controls for Federal
Information Systems. We tested the controls defined by NIST SP 800-53 for such systems
through interviews, observation, and specific testing procedures where applicable. Examples of
key controls tested included:

    •   Controls over administration of user accounts
    •   Controls over application, database, and server changes
    •   Controls over segregation of duties within HRMS, and
    •   Controls over the logging and monitoring of user activities

RESULTS

Overall, we concluded that management has done a good job identifying, documenting, and
implementing management, operational, and technical controls over HRMS. Specifically, we
noted that the HRMS C&A process was adequately documented, the Plan of Actions &
Milestones (POA&M) was effectively maintained, and the HRMS disaster recovery plan had
been adequately tested. We did, however, note some weaknesses during our testing. While
policies and procedures have been established, in some instances these policies and procedures
were not being followed, which may increase risks beyond what management is willing to accept.
We detail these specific control weaknesses below.

User Access Request Procedures Are Not Implemented

Controls are not adequate to ensure that policies and procedures over the use of user access
request forms are implemented. We determined management was not enforcing their documented
access authorization procedures that require new user access be requested and approved using the
HRMS access request form. We selected a sample of 45 HRMS users and requested supporting
access request forms and noted that of the 45 users selected, 44 users did not have an access
request form. Upon further review, we noted that the 44 users had supporting emails, but these
emails did not include all of the information contained in the access request form, such as a
signature.



                                                5
HRMS System Security Plan Section AC-2 Account Management states that:

        To access the ERP HRMS system, a user must have an active Novell network
        logon ID/password and a PeopleSoft / Medgate logon ID/password. Users must
        submit a written and approved ERP HRMS access request form to the Help Desk
        to gain access to the system. Access request forms must be signed by the user’s
        immediate supervisor and Administrative Officer. The supervisor and
        Administrative Officer are responsible for ensuring that the user’s privileges are
        appropriate and that proper segregation of duties is maintained. The user’s
        immediate supervisor is responsible for ensuring that user access privileges are
        removed in a timely manner.

NIST SP 800-53, Recommended Security Controls for Federal Information Systems (AC Policies
and Procedures), states that:

        AC-2 Account Management: The organization manages information system
        accounts, including establishing, activating, modifying, reviewing, disabling, and
        removing accounts.

NIST SP 800-14, Generally Accepted Principles and Practices for Securing Information
Technology Systems, section 3.5.2 (User Administration) under User Account Management states
that:
       Organizations should have a process for (1) requesting, establishing, issuing, and
       closing user accounts; (2) tracking users and their respective access
       authorizations; and (3) managing these functions.

Insufficient or ineffective access controls can increase the risk of individuals being granted
excessive or unauthorized access to the system and related data, which increases the risk of
inappropriate disclosure of sensitive data.

Recommendation

    1. We recommend that the Chief Information Officer (CIO) enforce the Institution and
       HRMS-specific access control policy which requires an approved ERP HRMS access
       request form be submitted prior to granting new users access to HRMS. In addition, all
       current users who do not have an approved access request form on file should be required
       to complete the form.

Segregation of Duty Controls Need Improvement

Controls are not adequate to ensure that access within HRMS has been adequately segregated to
reduce the likelihood of individuals performing inappropriate or unauthorized activities.
Specifically, we determined management has not taken adequate steps to ensure the segregation
of incompatible functions in HRMS. We noted the following weaknesses:

    •   Review of HRMS Oracle database logs is not performed by an individual independent of
        administration. Currently, database logs are reviewed by the Oracle database
        administrator. Best practices dictate that administrative and security functions be
        segregated to ensure activities performed by individuals with high-level access are
        independently reviewed.
                                                 6
    •   HRMS developers have access to the production environment. Specifically, we
        identified four individuals with access to the development, testing, and
        production environments in HRMS. We determined that OCIO can grant waivers
        for these individuals if it is necessary to have access to production to perform
        their job duties. Through interviews, we determined that these individuals did not
        have a waiver from OCIO justifying their level of access. NIST and industry best
        practices require sensitive activities, including the development of changes and
        movement of changes into production, be segregated to help ensure only
        authorized changes are introduced into production.

The HRMS system security plan section AC-5 Separation of Duties states that:

        Examples of separation of duties include: (i) mission functions and distinct
        information system support functions are divided among different
        individuals/roles; (ii) different individuals perform information system support
        functions (e.g., system management, systems programming, quality
        assurance/testing, configuration management, and network security); and (iii)
        security personnel who administer access control functions do not administer
        audit functions.

        Where feasible, programmers who maintain an application should not have access to
        production data in that system. Programmers must not, in any case, alter data using
        processes external to the application without documented approval by the system
        sponsor. In sensitive systems users must not be given privileges that allow them to
        initiate and approve the same transaction.

In addition, Technical Note IT-930-TN10 details the procedures on minimizing access to
production software and data, including separation of duties. Section C.ii Separation of Duties
states:

        Ensure that application developers and system administrators are not given access to
        modify production data. If this is required for their official duties, then a waiver must be
        obtained by OCIO.

Finally, NIST SP 800-53, Recommended Security Controls for Federal Information Systems
(Policies and Procedures) states:

        CM-5 Access Restrictions for Change: The organization enforces access
        restrictions associated with changes to the information system.

Our review of the standard HRMS access request form noted that administrative activities and
system support functions were not identified on the access request form. However, during the exit
conference OCIO provided a revised access request form, which now identifies specific
functions. Although these functions have been identified, not enforcing the concepts of least
privilege or separation of duties with regards to the review of database logs and access
restrictions associated with HRMS changes increases the risk of inappropriate activities occurring
without management’s knowledge.




                                                 7
Recommendation

    2. We recommend that the CIO identify, document, and implement segregation of duty
       controls for sensitive administrative and system support functions. Management should
       document in the system security plan those activities that need to be segregated.

Database Logging and Monitoring Controls Are Inadequate

Controls are not adequate to ensure HRMS database logs are reviewed weekly as required by
NIST and Institution auditing and logging policies and procedures. Specifically, we determined
HRMS database logs were not being reviewed on a consistent basis.

We noted that monthly compliance reports are generated to report auditing and logging activities
within HRMS but are not regularly reviewed. The monthly compliance reports show selected
application and database auditing and logging activities that are monitored each month and
submitted to OCIO. Based on our review of the November 2006 report, we noted that database
log activities within HRMS were not included.

Technical Note IT-930-TN03, Auditing & Logging Procedures state:

        Review logs weekly. Audit trails must be reviewed weekly by the Security Group
        or other authorized individuals who do not administer access to the application
        and/or system and are not regular users of the system. The Computer Security
        Manager must review the audit trail monthly and provide a report to OCIO.
        Anomalies must be reported immediately to appropriate supervisory positions
        and the Computer Security Manager for follow-up action. After resolution of any
        abnormalities a formal report of findings must be reported to OCIO.

In addition, NIST SP 800-53, Recommended Security Controls for Federal Information Systems
(Access Controls) states:

        AC-13 Supervision & Review – Access Control: The organization supervises and
        reviews the activities of users with respect to the enforcement and usage of
        information system access controls. The organization reviews audit records (e.g.,
        user activity logs) for inappropriate activities in accordance with organizational
        procedures. The organization investigates any unusual information system-
        related activities and periodically reviews changes to access authorizations. The
        organization reviews more frequently the activities of users with significant
        information system roles and responsibilities.

        AU-6 Audit Monitoring, Analysis & Reporting: The organization regularly
        reviews/analyzes information system audit records for indications of
        inappropriate or unusual activity, investigates suspicious activity or suspected
        violations, reports findings to appropriate officials, and takes necessary actions.
        The organization employs automated mechanisms to integrate audit monitoring,
        analysis, and reporting into an overall process for investigation and response to
        suspicious activities.

Insufficient or ineffective monitoring of system logs can increase the risk that inappropriate or
unauthorized activities may occur without management knowledge.

                                                 8
Recommendation

       3. We recommend that the CIO enforce Institution policy and procedures requiring the
          weekly review of logs and monthly submission of appropriately detailed management
          reports to OCIO.

Baseline Configurations Are Not Documented

Controls are not adequate to ensure that differences between the Institution and HRMS baselines
are documented. Specifically, we noted that while management used OCIO’s standard baseline
templates to install and configure HRMS, management did not document the final baselines and
note where deviations may have occurred for valid business purposes.

In addition, as noted in the FY2006 FISMA evaluation report, 1 OCIO’s standard baselines for
Windows and Oracle were not adequate to ensure all controls applicable to Windows and Oracle
systems were addressed.

NIST SP 800-40, Creating a Patch and Vulnerability Management Program Section 4.3 Using
Standardized Configurations states that:

           A standard configuration should be defined for each major group of IT resources (e.g.,
           routers, user workstations, file servers). Organizations should focus standardization
           efforts on types of IT resources that make up a significant portion of their entire IT
           resources. Likely candidates for standardization include end user workstations, file
           servers, and network infrastructure components (e.g., routers, switches). The standard
           configuration will likely include the following items:

                •    Hardware type and/or model
                •    Operating system version and patch level
                •    Major installed applications (version and patch level)
                •    Standard configuration settings

           In many cases, these standardized configurations can be maintained centrally, and
           changes can be propagated to all participating IT resources. An organization that relies on
           a hardware supplier to place a standard configuration on new computers should
           coordinate closely with that supplier to ensure that changes, including new patches, are
           implemented quickly.

In addition, OCIO Technical Note IT-960-TN16 Baseline and Configuration Management of
Application, Database, and Web Servers, dated June 16, 2005 Section D Server Configurations,
pg. 5 states:




1
    Report on FY 2006 FISMA Audit of the Smithsonian Institution’s Information Security Program, Number A-06-05,
    April 20, 2007.
                                                          9
        Individual server configuration documents must be maintained for each server by
        system owners. At a minimum, these documents should contain information such
        as the server name, location, purpose, Internet Protocol (IP) configurations,
        application specifics, organizations supported, maintenance schedules, and which
        baseline document was used to initially build the server.

Without system-specific documented baselines, management cannot ensure that technical controls
have been adequately identified and implemented.

Recommendation

    4. We recommend that the CIO document final baselines for the HRMS operating system
       and database after determining what Institution-wide baselines will be adopted. In
       addition, as part of installing the baselines, OCIO should specifically note where
       suggested security settings have not been implemented for valid business purposes.

Information System Connections Are Not Formally Authorized

Controls are not adequate to ensure that the Smithsonian establishes proper authorization for all
connections from the information system to other information systems outside of the accreditation
boundary and monitors and controls the system interconnections on an ongoing basis.

HRMS has been operating since October 2004 without any formal interconnection agreement
with the National Finance Center (NFC). Sensitive privacy data related to personnel and workers’
compensation issues is being transferred through the Institution’s connections with NFC. Our
audit determined that the Institution has an informal Interconnection Security Agreement (ISA)
but no Memorandum of Understanding (MOU) with NFC. This issue has been included in the
POA&M.

The Institution’s policy on information system connections requires both an Interconnection
Security Agreement and a Memorandum of Understanding. OCIO Technical Note IT-930-TN22
Security Agreements for Interconnected Systems Section 4A & 4B states that:

        System owners should use NIST SP 800-47, Security Guide for Interconnecting
        Information Technology Systems, as a guide for planning, establishing,
        maintaining, and terminating interconnections between SI systems and non-SI
        systems.

        Prior to connecting the systems the system owner should prepare two documents:

                °   A MOU defining the responsibilities of the various organizations in
                    establishing, operating and securing the Interconnection. This
                    document should not contain technical details. Appendix A of the
                    Tech Note contains a sample of this document.

                °   An ISA containing a statement of requirements and the system technical and
                    security controls required for the interconnection. Appendix B of the Tech
                    Note contains a sample of this document.



                                               10
NIST SP 800-47 Security Guide for Interconnecting Information Technology Systems, Section 2
Background, states that:

       It is critical, therefore, that both parties learn as much as possible about the risks
       associated with the planned or current interconnection and the security controls that they
       can implement to mitigate those risks. It also is critical that they establish an agreement
       between themselves regarding the management, operation, and use of the interconnection
       and that they formally document this agreement. The agreement should be reviewed and
       approved by appropriate senior staff from each organization.

       Federal policy requires federal agencies to establish interconnection agreements.
       Specifically, OMB Circular A-130, Appendix III, requires agencies to obtain written
       management authorization before connecting their IT systems to other systems, based on
       an acceptable level of risk. The written authorization should define the rules of behavior
       and controls that must be maintained for the system interconnection and it should be
       included in the organization’s system security plan.

       Section 3.5, Step 5: The joint planning team should document an agreement governing
       the interconnection and the terms under which the organizations will abide by the
       agreement, based on the team’s review of all relevant technical, security, and
       administrative issues (Section 3.4 above). Two documents may be developed: an ISA and
       an MOU/A. Because the ISA and the MOU/A may contain sensitive information, they
       should be stored in a secure location to protect against theft, damage, or destruction. If
       copies are stored electronically, they should be protected from unauthorized disclosure or
       modification. An ISA development guide and sample are provided in Appendix A, and an
       MOU/A development guide and sample are provided in Appendix B.

We note that over the past couple of years the Institution has attempted to establish an
interconnection agreement with NFC. We were informed that an interconnection agreement
between NFC and the Institution was prepared and OCIO awaits the final signed copies from
NFC.

Recommendation

   5. We recommend that the CIO formalize the Interconnection Security Agreement and
      establish the Memorandum of Understanding between the Institution and the National
      Finance Center of the U.S. Department of Agriculture in accordance with Institution
      policy and NIST guidance.




                                               11
SUMMARY OF MANAGEMENT RESPONSE

Management’s September 7, 2007, response to our draft report concurred with our findings and
recommendations. Management implemented improved user account authorization procedures for
new account requests and requests for account changes. By June 2008, OCIO will ensure that all
current users provide approved access forms. The CIO also agreed to strengthen its controls over
segregation of duties as well as database logging and system monitoring by early 2008. In
addition, OCIO has signed and submitted to the National Finance Center for their signature a
Memorandum of Understanding and Interconnection Security Agreement. Finally, by April 30,
2008, OCIO agreed to establish Institution-wide baselines and document any deviations in HRMS
baselines.

We include the full text of management’s response in the Appendix to this report.

OFFICE OF THE INSPECTOR GENERAL COMMENTS

Management has planned and taken actions that are responsive to our recommendations, and we
consider them resolved. Regarding recommendation four, we urge OCIO to establish
Smithsonian-wide baselines as soon as practicable because of the sensitivity of data contained in
the Institution’s systems and the widespread baseline weaknesses that we have identified in our
FISMA-related reports.

We appreciate the courtesy and cooperation of Smithsonian representatives during this audit. If
you have any questions concerning this report, please call Stuart Metzger or Joan Mockeridge at
(202) 633-7050.




                                               12
Appendix – Management Response




                                 13
14
15
